                  AREA AGENCIES ON AGING


                  SELECTED BEST PRACTICES





tJ
   " SERV/CEj"





  -lb'
         d30



OFFICE OF INSPECTOR GENERAL
  OFFICE OF ANAL YSIS AND INSPECTIONS

                                        September 1987

           , "





                     Off ice of Inspector General


The mission of the OffIce of Inspector General (OIG) is to
promote the efficiency, effecti ness and integrity of
programs in the United states D partment of Heal th and Human
Services (HHS). It does this by developing methods to
detect and prevent fraud , waste and abuse. Created by
statute in 1976, the Inspector General keeps both the
Secretary and the Congress fully and currently informed
about programs or management problems and recommends
corrective action. The OIG performs its mission by
conducting audi ts , investigations and inspections wi
approximately 1 200 staff strategically located around the
country.
                  Off ice of Analysis and Inspections


This report is produced by the Office of Analysis and
Inspections (OAI), one of the three major offices within the
OIG. The other two are the Off ice      of Audi t and the Off     ice
of Investigations. OAI conducts inspections which are
typically short- term studies designed to determine program

abuse.
effectiveness ,efficiency and vulnerability to fraud or


                             This Report


Entitled Area Agencies on Aging --   Selected Best
practices " this study was conducted to identify innovative
programs for the elderly established by Area Agencies on
Ag ing   around the country.
The report was prepared by the Regional Inspector General
Off ice of Analys i s   and Inspections ,   Reg ion I   I I.
Participating in this project were the following people:

Philadelphia Region                           Atlanta Region
Joy Quill (project Leader)                    Judi th Morgan
James Dorsey                                  Chr istopher Koehler
Francesca Di Cosmo
                                              Kansas City Reg   ion
Headquarters Office                           Doris Phillips
Alana Landey                                  James Wolf
                      AREA AGENCIES ON AGING


                    SELECTED BEST PRACTICES





RICHARD P. KUSSEROW                             AUGUST 1987
INSPECTOR GENERA


OAI- 03-87- 00021
                        INTRODUCTION


The Older Americans Act of 1965, as amended in 1973,
required state Units on Aging (SUAs) to divide their states
into planning and service areas (PSAs) and designate
networks of Area Agencies on Aging (AAs) to plan and
develop comprehensive systems of services for the elderly
wi thin those areas. Wi thin the framework of policies and
plans established by SUAS, AAs are responsible for being
focal points wi thin their PSAs and catalysts for planning,
coordinating, developing and pooling resources to create
comprehensive systems of services for the elderly.

By law, the major function of AAs is to assist communi  ties
to plan, develop and implement comprehensive and coordinated
systems of services for the elderly.   AAs foster systems
development through conducting needs assessments, developing
area plans for state approval, contracting with local
agencies to provide specif ic services, and working with
other community entities to promote awareness of elderly
concerns and stimulate additional funding sources.

An inspection was conducted at the request of the
Administration on Aging (AOA). Its purposes were to
determine whether AAs have created comprehensive systems of
services for the elderly, how AAs are percei ved within their
communi ties, whether AAs are part of a national aging
network, and whether providing direct services interferes

wi th A.:aS ' planning and coordination responsibil i ties. We
   so ide   ie6      e5t pr   ces in the Sta 0S and areas
visited.
Fieldwork consisted of visits to 17 state Units on Aging and

25 AAs, and discussions with l79 community agencies and l22
elderly clients. The sites visited were not based on a

statistically valid random sample, but were generally

selected based on recommendations from AOA.

The results of our inspection are reflected in two reports.
This report, entitled " Area Agencies on Aging -- Selected
Best practices, " describes innovative programs identified
during the fieldwork phase of our inspection. The programs
described in this report are in no way intended to be a

comprehensi ve listing. Rather , they were the programs which

particularly impressed our team members during field visits

to 17 states and 25 AAs.    They are presented to serve as
illustrative examples of the types of innovative practices

being undertaken by AAs visited which might be of interest
to other AAs around the country.




                            - 1 ­

The report is divided into sections on community systems
development, nutrition, promoting independence, outreach and
the ombudsman program. Several of the best practices
presented incorporate aspects of more than one of the above
categories.  Nevertheless, we felt that it would be useful to
have discrete sections, rather than to present the practices
in an undifferentiated listing.
Under separate cover is a companion report , entitled

 Communi ty Systems Development under the Older Americans
Act. " It contains the findings and recommendations of the
inspection relating to the success of AAs in  fulfilling
their community systems development responsibilities under
the Older Amer   icans Act.




                              - 2 ­

         BEST PRACTICES IN COMMUNITY SYSTEMS DEVELOPMENT



The development of comprehensive systems of services for the
elderly wi thin their planning and service areas (PSAs) is a
major AA responsibility which most AA directors consider to
be their highest priority. The four examples presented below
illustrate how AAs have used their leverage and influence
within their communities to serve as catalysts in bringing
together public and pr i vate entities to establish new services
or improve existing services for the elderly.
Senior Campus


The AA director for a midwestern city has forged a partnership
with county agencies and the private sector to develop a
42-acre parcel of county-owned land into a senior citizens
housing complex with a variety of service agency offices on the
same " campus.  This long term plan for the senior citizen
center is the latest use for the county property, which has at
various times served as the site of a home for the aged , a
county hospital, a tuberculosis sani tar ium and a medical
school campus.


The project , which is expected to take up to a decade to
complete, will include a variety of residential facilities for
the elderly, including shared , congregate and independent
living arrangements. The county has already put about $l.
million into the roads , parking lots and utilities which will
serve the complex. Construction funds are being loaned by a
loe al   bank.
Numerous public and private agencies serving the elderly have
agreed to locate offices in the senior citizen administration
building, which is envisioned as the entry point for seniors to
gain access to a network of available services and programs.
In addition to a senior center and recreational programs , a
service center for the well elderly will contain such
businesses as beauty and barber shops, a pharmacy, a library
and a medical supply store. A full range of services for
functionally impaired individuals will also be available on
the campus, including home- delivered meals, homemaker and
chore service, respite care and adult day care.

Contact for more    information:
Area Agency on    Aging of Northwestern Ohio, Inc.
2155 Arlington Avenue
Toledo, Ohio 43609
4l9- 382- 0624


                               - 3 ­

Senior Peer Counseling program

This program is a joint effort of the AA, the county
depart ment of human resources, the state welfare department
and a local hospital. It was developed through efforts of the
county aging and mental health task force, which consists of
representatives from 22 county agencies and organizations with
an interest in addressing the needs of the county s elderly.
The program s goal is to respond to the mental health needs of
the elderly using a volunteer corps of senior peer counselors.
In addition to the types of mental illness common to people of
all ages, the specific mental health needs of the elderly
include coping problems associated with the multiple losses
commonly experienced through        aging.
                                     Supportive counseling is
also available to the caretakers of the elderly, who are
considered high risk.
The program has three service objectives:

    primary prevention, including maintenance and enhancement

    of the mental health of the elderly.


    Secondary prevention , including specific interventions and

    attempts to reverse the course of and to eliminate an

    acute disorder.
    Tertiary prevention , such as stabilizing as much as
    possible a chronic disorder, minimizing the handicapping
    potential of the di sorder and preventing additional
       er i =ratic       heal th   :rc      cDdary problems.
Since services began in 1985, about lO , 000 hours of counseling
have been provided to 850 clients by 20 peer counselors,
following initial interviews and screening by 4 paid
counselors.
Contact for more     information:
Delaware County Services for the Aging

Government Center
Media, Pennsylvania 19063
2l5- 89l-4463




                                   - 4 ­

Soc ial Services Task Force


The establishment of a social services task force by one 

demonstrates how problems identified during the case management

process can be incorporated into an AA' s planning and systems

building acti vi ties.
Case managers at this New England AA, which provides case
management services directly, found long waiting lists for
homemaker services at all area social service  agencies.  Upon
studying the problem, the AA  planning staff found that the
generally high socioeconomic status of PSA residents made it
difficult to find homemakers willing to work at the rates which
local social service agencies could offer. The AA also found
there was a tendency on the part of social service agencies not
to share their knowledge of available services with other
social service agencies.

The AA was the catalyst in convening a task  force of local
social service agencies to share information about these

limi ted community resources. The result has been that those
most in need of homemaker services are now receiving the

highest priority for service.


Contact for more information:


Minuteman Home Care Corporation

83 Hartwell Avenue

Lexington, Massachusetts 02173
f17-862- 620C




                               - 5 ­

Dental Care for the Homebound


This program uses volunteer dentists and private donations to
provide free dental care for the elderly. A nutritional
assessment of 220 home-delivered meals program participants
conducted by the  AA in  1985 found that only l7 percent were
recei ving regular dental care, as compared wi th 80 percent
who have regular visits with a   physician.  About 25 percent
of the respondents could not eat meat, salads or other
fibrous foods, such as asparagus or crackers, and were in
danger of being malnourished.

The AA sent letters  to all dentists in one rural county
describing the survey findings. In response to the AA I
request, all of the dentists agreed to set aside one
afternoon to provide free dental examinations, x-rays and
teeth cleanings to three homebound individuals. The
provided transportation to and from the dentists ' offices and
assisted in completing the necessary paperwork.

Many of the 36 clients who received the free dental exams had
not seen a dentist for several years, and were pleasantly
surprised to learn that a visit to the dentist need not be
the painful and traumatic experience they remembered from
years past. Eighty percent of those who were found to need
addi tional dental treatment decided to have the recommended
treatment at their own expense. Twenty percent were unable
to afford followup care. To meet this continuing need, the
AA has begun to approach area service organizations to
sponser a seni2r or make a contribution.


The AA plans to repeat the program later this year in the

same county, and expand it to the remainder of the PSA next

year.
Contact for more information:


East Central Florida Area Agency on Ag i ng
lOll Wyore Road
Winter Park, Florida   32789
305-645-3339




                               - 6 ­

                         :;      :::'                                           ;"




                              BEST PRACTICES IN NUTRITION



The Older Americans Act has supported an extensive program of
congregate and home- delivered meals since the early 1970s'
In recent years, some AAS have expanded their efforts to
focus on individuals with special needs who cannot be
accommodated by the regular AA- funded nutrition programs.
Three examples are described: one for patients recently
discharged from the hospital, one for individuals who need
companionship as much as a meal, and the third for low- income
homebound seniors in need of an evening meal.

Senior Crisis Meals


A southwestern AA has developed a special emergency meals
program for discharged hospital patients funded entirely by
contributions. The program was established in response to a
need identified by              AA staff for
                                  a brief period of post-
hospitalization in- home supportive services , including
emergency home- delivered meals, for elderly recuperating
after stays in the hospital.

After a year of education and negotiation, the AA convinced
the local restaurant association to cosponsor the . Senior
crisis Meals" program. Small collection cannisters placed
next to cash registers in half of the 200 member restaurants
are now generating $800 per month in donations.
All funds collec 9d are used to buy food. Meals are
  :::' r: 3.:: ecl \..Jrt (": let:;. d. '2      .:: S:J Pi? J. 2. . :: r l.l s ed
                                           :' 4
                                                                                  he F-.
heme- delivered meals C0:1t;:actor , who delivers them to
individuals using their regular delivery                       system.               Meals are
provided on an emergency basis only, for an average of 3 days
following hospital              discharge.              While there is no charge for
meals , voluntary contributions are welcome. Most clients are
referred to the program by hospital discharge planners or the
home- delivered       meals contractor.
The program has been operating for over 2 years. The AA is
now working to expand the program to area hotels and resorts
through discussions with the local innkeepers' association.

Contact for more              information:
pima Council on Aging

l03 East Alameda

Tucson, Arizona 8570l
602- 624- 4419



                                           - 7 ­

Happy Nooners Program

Since last sumer, the community council in a popular

suburban retirement area has been locating lonely seniors to
participate in a once-a- week lunch at a local nursing or
retirement home. The program operates 7 days a week at 7
different nursing and retirement homes. Each day, a
different nursing or retirement home hosts 8 to l2 seniors
for lunch.  Altogether, about 60 seniors now participate in
the program. The home I s food costs are partially defrayed by
a $2 lunch charge collected from the participants.


Volunteers, mostly from local churches, publicize the
program through flyers, ads and newspaper   articles. They
also provide transportation and greet participants. The AA
funds the volunteer coordinator position.
The program has benef i ts for both the seniors and the
nurs ing and retirement homes. For seniors, it is an
opportunity to socialize with new friends while having a

nutr i tiousmeal.  For those who may someday become permanent
residents of the homes, the chance to visit and become

familiar with them can ease the transition later   on. For
retirement and nursing homes, the program serves as public

relations and outreach to potential future residents.

Efforts are underway to expand the program to more nursing

and retirement homes. This will enable current seniors to
participate more than one day a week, and will eventually

allow       ogram to accoIT odate more participants.

Contact for more   information:
Maricopa Council on Aging
1366 East Thomas Road
Phoenix, Arizona 85016
602- 264- 2255




                              - 8 ­

Evening Meals for the Homebound


This program in the midwest is the result of a partnership

between a local developmental disability agency and a private

nonprof i t community center, with homebound seniors as the
beneficiaries. Two years ago, the developmental disability
off ice established a food service training program to prepare
the developmentally disabled for jobs in the food service
industry.    The training takes place at the local community
center, which also pays for the food.

The AA assisted     with information and technical assistance
dur ing the start-up phase, and the         AA nutritionist continues
to review planned menus to insure that meals will be
nutri tionally balanced. The local restaurant association has
been involved in approving the student curriculum.

Every weekday evening, developmentally disabled students

prepare and deliver nutritionally balanced dinners to some

65 low income individuals, of whom about 60 are homebound

seniors.  Many are also disabled. Efforts are now underway
to expand the program, as well as to find ways to make it

self- supporting.
Contact for more    information:
Eastern Nebraska Off ice   on Aging

885 South 72nd Street

Omaha, Nebraska 68114

402-444-6536




                                   - 9 ­

             BEST PRACTICES IN PROMOTING INDEPENDENCE



One of the broad policy objectives upon which the Older

Americans Act is based is to assure older Americans maximum

independence, financial as well as personal, in planning and
managing their own lives. The following are examples of
efforts to enable the elderly to continue living independently
wi thin their communi ties as long as they wish to and are
capable of doing   so.  One enables senior home owners to work
in exchange for credit toward local property   taxes.  The other
matches trained retirees with the elderly and their families
in need of respite care in their own homes.

Senior Tax Work-Off


In one western county, senior property owners are able to work
off part or all of their city and county property taxes through
a program administered by the   AA. Now in its sixth year , the
program was the brainchild of a senior citizen who approached
the city with his idea.

To be eligible to participate, individuals must own their homes
and be at least 60 years old (65 for the city program). While
there are no income guidelines , the AA does try to target low
income applicants. Some 60 individuals are participating in

the county program this year.


Seniors wishing to participate in the program complete an
applicati D de5s= bing    heir skills and capabilities and are
inte v iewed b he    P=O;Z3ID coordi ato= terself a senior tax
work-off program participant. City and county agencies submit

work orders to the coordinator , who then matches individuals

wi th available tasks. While most work orders were initially

for clerical help, seniors now perform tasks as varied as

drafting and engineering, 5- year capital improvement plan

development, driving a city van , and rototilling at public

parks.
participants earn credit toward their taxes at the rate of
hourly minimum wage, with total credit limited to $250 for the
county program. The city has no upper limit. credit for both
programs cannot exceed the total taxes owed.

Contact for more information


Larimer County Area Agency on Aging

Department of Human Development

  O. Box ll90
525 South Oak Street

Fort Collins, Colorado 80522
303- 22l- 7440

                             - 10 ­

                                            :.                        :;,




Real Help and Respite Care Registry
In an east coast suburban area, the Retired Senior Volunteer

Program (RSVP)  established Real Help, a program which matches
retirees with elderly individuals who pay for a variety of
small tasks, such as minor repairs, chores and help with
shopping. The retired workers are paid   by the elderly
indi viduals at mutually agreed upon rates.
In 1983, recognizing the increasing need for respite care, and

mindful of the fact that most caregiving is done through

informal systems, the AA approached RSVP to create a Respite
Care Registry in conjunction with the Real Help program.


To be enrolled in the Respite Care Registry, applicants must

complete a 25- hour Respite Care Training Course offered by the

American Red Cross. The curriculum covers emergency

first-aid, as well as such topics as grooming, toileting,

bathing, dressing, eating and walking.


After completion of training, workers are enrolled in the

Registry.  When inquiries are received, the Registry
Coordinator matches a worker with the requesting individual or
family, who together determine the terms, conditions and
length of employment as well as the hourly        Hourly rates                       rate.
range from $5 to $8.

AA funding covers               a full-time Registry Coordinator and the
Respi te          Care Training Course. The AA also pays      for the cost
cf resDit2          care         clier s unable to purchase the service on
a ?=iv       ce     ay taslS       :-:f:;     ch.i i
                                                 ::r   :J r)(   21-         :1:: 2. :. i   call


considered pr i vate providers, not employees of RSVP. For
those clients for whom the AA subsidi zes the payments,                                           the
respi te workers are considered contract employees.


Last year, an average of 40 respite workers were listed on the

registry.   Some 40 people received subsidized respite care
and about 30 individuals paid for respite care each month.

Over 2, 500 hours of care were delivered each month, of which
80 percent was on a private pay basis.


Contact for more               information:
Delaware County Services for the Aging

Government Center
Media ,      Pennsylvania 19063
 215-891-4463




                                                   - 11 ­

                    BEST PRACTICES IN OUTREACH



Identifying those in need of services was mentioned by AAs
visit.ad as one of the most difficult responsibilities to
carry out using traditional methods. The following two
examples illustrate outreach programs which have proven to be
particularly effective.

Neighbor to Neighbor


For the past 3 years, a midwestern AA has been recrui tipg and
training elderly volunteers for the neighbor to neighbor
program. Neighbor to neighbor was designed to use local
residents to help their homebound elderly neighbors to live
independently in their own homes.

Each volunteer is provided with a copy of the AA' s aging
services directory, and is trained to provide information and
referral services to their elderly neighbors. Volunteers call
or visit their neighbors on a daily or weekly      basis.
                                                      The fact
that the volunteers are their neighbors, rather than
professional outreach or social service workers, has resulted
in greater receptivity and a high degree of trust among the
elderly homebound. When problems are identified, the
volunteer helps the elderly resident to make contact with the
appropr ia te serv ice   agency.
Vol unteers are recrui tea    through churches, local senior clubs
          media. Altt0       here is t rnover, approxi, tel
trained   neighbor to neighoor volunteers are active at all
times.    Well over l, 000 elderly residents have been
identified and helped since the program      started.
Contact for more information:
Eastern Nebraska Off ice on Aging
885 South 72nd Street
Omaha, Nebraska 68114
402-444-6536




                                   - l2 ­

Gatekeeper Project


This statewide program is a joint ini   tiati ve of the state
aging network and the State s major utility company.

Field staff and others with customer contact at the utility

company noticed that raises in utility rates were often

causing financial problems for elderly area residents living
on fixed incomes. They also noticed when individuals were
exper iencing other kinds of diff icul ties , but felt they were
powerless to help.
After a comprehensive developmental process , the State Unit on
Aging initiated a program to train utility employees who have
customer contact to refer elderly customers who appear to be
in diff icul ty by calling the elderly information and
assistance (I&A) agency in their county. Since the training
could be completed in less than an hour , it was feasible to
train virtually all utility employees with customer contact.
During its initial pilot phase in one community, 27 percent
of all referrals came from community " gatekeepers.    The
program now covers the entire State, and has resulted in
countless referrals and inquiries to I&A off ices in each
county.    This simple, yet effective, concept can also be used
with other " gatekeepers " such as pOlice, mail carriers , and
grocery clerks.
Contact for more   information:
Bureau of Aging and Adult Services
   artrne : of Social a d Eealth Services
OB - 4 3 G
Olympia, Washington 98504
206- 753- 3768




                              - l3 ­

           BEST PRACTICES IN THE OMBUDSMAN PROGRA



The nursing home ombudsman program was established to assist
in the resolution of complaints and problems identified by
nursing home residents or their families regarding living
conditions and quality of care provided by nursing homes. The
ombudsman is seen as an interested but neutral third party who
can mediate between the complainant and the nursing home to
facilitate resolution of problem situations to everyone
satisfaction.
Below are three examples of ombudsman programs which have made
special efforts to establish the strongest and most effective
programs possible, to meet needs identified by the AAs.

Full-Service Ombudsman


This unique ombudsman program in a southwestern State is not
limi ted to nursing home residents. It assists anyone aged 60
or over who is eligible for social services , as well as local
organizations and agencies which provide the services.
The rationale for the broadened coverage is that approximately

95 percent of the elderly do not live in nursing homes.

Although organizationally placed within the AA, the

ombudsman s salary is fully paid by the county.

The ombudsman responds to inquir ies and deals with a wide
range of problems in such areas as Social Security, Medicare,
tra  sporati    , sup?leffental security income , food stamps , and
hospi tal s ays , as well as problems encountered by nursing
home residents. He also responds to referrals from other
parts of the country.    During a recent I- year period, nearly
  000 clients were served.


Contact for more information:

pima Council on Aging

103 East Alameda

Tucson , Arizona 8570l
602- 624- 44l9




                              - 14 ­

Coordination with Case Management


In this western AA there is a special arrangement between the
ombudsman and the case management staff regarding referral of
elderly individuals to area nursing homes. The ombudsman, who
is also a registered nurse, moni tors the treatment of nursing
home residents, including patient chart review.   When she
recei ves a complaint or identifies a problem at a particular
nursing home, she notif ies the AA case management staff, who
discontinue referrals to that nursing home until the problem
is resolved.


By interrelating the ombudsman and case management functions,
referrals to problem facilities are avoided. This arrangement
also serves as an incentive to nursing home owners to resolve
problems and complaints quickly in order to avoid an
interruption of referrals by the AA to their homes.

Contact for more information:


Marin County Area Agency on Aging

Civic Center

San Rafael, California 94903
4l5-499-7396




                            - 15 ­

A Medical Component


While the ombudsman in a midwestern AA does not have medical
training, she has found a way to incorporate medical expertise
into 1the program.. Through an arrangement with a local medical
school, geriatric residents accompany the ombudsman on nursing
home visits as part of their regular training.

The program has a du l benef it:

    The ombudsman program s effectiveness has been enhanced by
    the residents ' knowledge and expertise. Nursing home
    rlesident problems of a medical nature which might have
    escaped the notice or been beyond the competence of the
    ombudsman herself can be recognized and dealt with by this
    team effort.

    Program participation is considered a vi tal part of the
    residents ' educational experience. They are learning
    first-hand about medical problems facing the elderly, as
    well as the psychosocial and environmental problems they
    experience which can affect their health and well being.

Contact for more   information:
Area Agency on Ag  i ng of Northwestern Ohio, Inc.
2155 Arlington Avenue
Toledo, Ohio 43609
4l9- 382-0624




                              - 16 ­

